OIG Audit Report 09-11
Federal Prison Industries, Inc. Annual Management Report - Fiscal Year 2008
Audit Report 09-11
January 2009
Office of the Inspector General
Commentary and Summary
This  audit report contains the Annual Management Report of the Federal Prison  Industries, Inc. (FPI) for the fiscal years (FY) ended September 30, 2008, and  September 30, 2007.  In accordance with  the Government Corporation Control Act, as amended (31 U.S.C. §9105), and  under the direction of the Office of the Inspector General (OIG), KPMG LLP performed  the audit in accordance with U.S. generally accepted government auditing standards,  which resulted in an unqualified opinion on the FY 2008 and 2007 financial  statements.  An unqualified opinion means  that the financial statements present fairly, in all material respects, the  financial position and results of the entity’s operations in conformity with U.S.  generally accepted accounting principles.
KPMG LLP also  issued reports on internal control over financial reporting, and on compliance and  other matters.  The auditors identified one  significant deficiency in the Independent Auditors’ Report on Internal Control  over Financial Reporting.  The significant  deficiency relates to vulnerabilities identified in the FPI’s financial  management system general controls environment.   Specifically, improvements are needed in the FPI’s access controls,  segregation of duties, and system software general controls.  No instances of non-compliance with laws and  regulations or other matters were identified during the audit.
The  OIG reviewed KPMG LLP’s reports and related documentation and made necessary  inquires of its representatives.  Our  review, as differentiated from an audit in accordance with U.S. generally  accepted government auditing standards, was not intended to enable us to  express, and we do not express, an opinion on the FPI’s financial statements,  conclusions about the effectiveness of internal control, conclusions on whether  the FPI’s financial management systems substantially complied with the Federal  Financial Management Integrity Act of 1996, or conclusions on compliance with  laws and regulations.  KPMG LLP is  responsible for the attached auditors’ reports dated November 8, 2008, and the  conclusions expressed in the reports.   However, our review disclosed no instances where KPMG LLP did not  comply, in all material respects, with U.S. generally accepted government  auditing standards.
Return to OIG Home Page